Scott Brown
DIRECT 205.254.1232
MAIL ScottBrown@maynardcooper.com

MAYNARD
COOPER GALE

November 27, 2019
VIA FEDERAL EXPRESS
The Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Shrinivas Sugandhalaya LLP v. Balkrishna Setty and Sugandhalaya (BNG) LLP,
et al.; Case No. 19-623

Dear Mr. Harris:
The undersigned represent Respondent Balkrishna Setty and Sugandhalaya (BNG) LLP
(collectively "Respondents"), respectively, in the above captioned case, in which the petition for
certiorari was filed on November 12, 2019. Unless the deadline is extended, that response is due
on December 16, 2019.
In accord with Rule 30.4, Respondents request an extension of time to complete their
response to the petition. Deadlines in other cases and personal commitments have and continue
to interfere with the preparation of Respondents' response. A 7-day extension to and including
December 23, 2019 will ensure sufficient time to fully analyze and respond to the arguments
raised in the petition. Given the Court's conference schedule, Respondents understand that this
extension will not impact when this petition will be submitted to conference.
Therefore, Respondents request an extension until December 23, 2019 to file their
response to the petition.
Thank you for your time and attention to this matter.
Very truly yours,

13

-•

/1,

Benjamin Hodges
Foster Garvey PC
1111 Third Avenue, Suite 3000
Seattle, WA 98101

Scott S. Brown,
Maynard Cooper & Gale PC
1901 6th Avenue North, Suite 2400
Birmingham, AL 35203

RECEIVED
DEC - 3 2019
OFFICE OF THE Cl..ErSUPREME COURT
1901 Sixth Ave. North / 2400 Regions Harbert Plaza / Birmingham, AL 35203 / 205.254.1000 / maynardcooper.com
05147386.1

